United States Court of Appeals for the
Fifth Circuit
Filed Jan. 10, 2020
No. 18-20780
UNITED STATES OF AMERICA,
PLAINTIFF - APPELLEE,
v.
STEPHEN E. STOCKMAN,
DEFENDANT - APPELLANT.
Appeal from the United States District Court for the
Southern District of Texas
Before: JOLLY, GRAVES, and HIGGINSON, Circuit
Judges.
E. GRADY JOLLY, Circuit Judge:
Stephen E. Stockman served four years in
Congress and now faces ten years in prison. He seeks
to avoid this career detour. He must admit that a
jury convicted him on twenty-three felony counts after
the government accused him, inter alia, of defrauding
philanthropists and using their money to finance his
personal life and political career. Acknowledging the
convictions, Stockman argues, nevertheless, that
prison should not be the next item on his résumé
because the convictions were tainted by improper jury
instructions and unsupported by the evidence. We
affirm.
I.
Stockman served two nonconsecutive terms in
the United States House of Representatives, first
from 1995 to 1997 and then from 2013 to 2015. During
his first term, Stockman began working with an
1a

organization called the “Leadership Institute,” where
he became acquainted with Jason Posey and Thomas
Dodd, two members of its staff. His relationships
with these two men would grow and then wither.
Stockman employed Posey and Dodd as campaign
staffers,
congressional
aides,
and
business
consultants. Their most recent roles were as
witnesses against Stockman.
Posey and Dodd worked with Stockman to
raise money for various “nonprofit” entities between
2010 and 2014, the period in which Stockman is
alleged to have orchestrated a criminal scheme to
obtain charitable donations under false pretenses
and to then enrich himself with the proceeds.
Though initially named as codefendants, Posey and
Dodd abandoned Stockman, pleaded guilty, and
testified against him. Their testimony helped reveal
the details of the scheme, which unfolded in four
parts, targeted two donors, and ultimately netted
over a million dollars for Stockman and his aides.
The 2010 Rothschild Donations
Stockman’s scheme began in May 2010, when
Stockman and Dodd started soliciting Stanford Z.
Rothschild, Jr., an elderly donor acting through his
foundation. Over the next five months, Stockman
and Dodd managed to persuade Rothschild to donate
$285,000 to the Ross Center, a Section 501(c)(3)1
nonprofit organization under Stockman’s control.
Rothschild was told that his money would fund
“voter education material” for Jewish voters in
Florida. Dodd testified that “voter education
material[s]” are print publications that “educate
This case involves so-called “501(c)(3)” and “501(c)(4)”
organizations. Those designations refer to provisions of the
Internal Revenue Code that give tax-exempt status to
qualifying nonprofit entities. See 26 U.S.C. §§ 501(c)(3)–(4).
1

2a

voters in the general public about public policy
positions and public policy issues.” Specifically,
Rothschild was pitched on a book about radical Islam
that would be mailed to voters in the lead-up to the
2010 midterm elections.
The deal was finalized only after Stockman
assured Rothschild that his money “was to be spent
for public policy [and] voter education that was 100
percent compliant with 501(c)(3) rules.” With this
reference to the “501(c)(3) rules,” Stockman appears
to have promised that he would spend Rothschild’s
money primarily (if not exclusively) in furtherance of
the educational goals laid out in the pitch. See 26
U.S.C. § 501(c)(3) (tax-exempt organizations must be
operated “exclusively for . . . charitable . . . or
educational purposes”).
But this promise soon vanished. Instead of
“voter education materials,” Stockman spent the
2010 Rothschild funds charitably on himself,
educating himself at Disneyland and other
amusement parks, at spas, and riding in hot air
balloons. Stockman’s charity to himself was
generous; it further included paying his business
expenses, including an abortive venture in South
Sudan on which Stockman spent about $13,000 of
the 2010 Rothschild funds. Stockman made the trip
to South Sudan hoping to win a lucrative lobbying
contract with a “performance bonus” that would allow
him to take a percentage of any foreign aid
appropriated by Congress.
Stockman failed to mail any “voter education
material” as promised.
The 2011–2012 Rothschild Donations
Stockman and Dodd were not finished with
Rothschild. In 2011, Stockman decided to run for a
second term in Congress. This time, rather than pitch
a “voter education” project aimed at indirectly
3a

influencing elections, Stockman and Dodd requested
a loan for Stockman’s campaign. Rothschild refused.
Instead, he agreed to give in the same manner as
before, i.e., to “mak[e] donations from his foundation
. . . to be used for voter education in accordance
with the 501(c)(3) rules.” Stockman again promised
to honor Rothschild’s wishes, so Rothschild made
another series of large donations, this time totaling
$165,000, to the Ross Center and Life Without
Limits (another Stockman-controlled nonprofit
entity).
As before, Stockman repurposed the funds. He
spent thousands on personal goods, including airline
tickets, fast food, and gasoline. He also diverted 80%
of a $100,000 donation to his congressional campaign
account. It was later reported to the Federal Election
Commission (FEC) that this deposit was a personal
loan from Stockman to his own campaign.
Stockman agrees that most of the 2011–2012
Rothschild funds were, in the words of his brief,
“transferred to other accounts controlled by
Stockman, including the account for his campaign
committee.” Stockman nevertheless reported in a
letter to Rothschild that the funds had “helped [Life
Without Limits] educate many people last year in
traditional American values.” The nature of those
“values” was not described.
The 2013 Uihlein Donation
In January 2013, Stockman, now a member of
Congress, shifted his attention to Richard Uihlein, a
Wisconsin businessman whose foundation has
donated millions of dollars to nonprofit organizations
that share his conservative values. Stockman and
Dodd pitched Uihlein on “Freedom House,” a
prospective residential facility in Washington, D.C.
that would house interns and provide a home base for
a non-existent nonprofit called the “Congressional
4a

Freedom Foundation.” Uihlein agreed to endow the
project with $350,000 in seed money. The seed was
not planted as promised, and the project died in
silence. But the seed money survived to promote a
new development in Stockman’s political career: he
had decided to run for the United States Senate in
2014.
Thus, as with the Rothschild donations,
Stockman used the 2013 Uihlein funds to meet his
personal and (especially) his political needs. For
example, Stockman spent over $40,000 on a plan to
surveil a conservative Texas politician whom
Stockman believed to be a likely opponent in a future
primary. Stockman also gave thousands of dollars to
his cohorts, Dodd and Posey, so that they, in turn,
could “donate” the money to Stockman’s Senate
campaign; the donations were falsely attributed to
Dodd’s mother and Posey’s father in FEC filings. In
sum, the 2013 Uihlein donation was spent in a long
sequence of varying expenditures, including $5,000
to pay the rent on Stockman’s campaign office, more
than $30,000 to pay off Dodd’s credit card debt, and
over $20,000 to patronize a publishing business
owned by Stockman’s brother.
Posey testified that no money was actually
spent on the project pitched to Uihlein. Even
Stockman agrees that no property was ever acquired
for such a project. Nonetheless, Stockman’s team
reported to Uihlein that his generosity had allowed
Life Without Limits to support Freedom House. The
2014 letter that makes this claim also goes on to
advise Uihlein that his “continued support is crucial
to our mission.”
The 2014 Uihlein Donation
By early 2014, Stockman was in the midst of
his primary challenge to incumbent United States
Senator John Cornyn. Stockman met with Kurt
5a

Wagner, the president of a direct mail company, and
the two men discussed Stockman’s plan to mail
Texas voters a faux newspaper called The
Conservative News on the eve of the Republican
primary. The Conservative News accuses Senator
Cornyn of “falsifying ethics reports to hide income,”
“lying to voters,” and filing “false donor reports at
least 121 times.” By contrast, The Conservative News
takes care to highlight Stockman’s policy positions
and legislative actions with bold headlines like
“Stockman Kills Cornyn-Backed Senate Amnesty
Bill” and “Stockman’s Sanctity of Life Act Overturns
Roe v. Wade.”
To finance this direct mail campaign,
Stockman instructed Wagner to seek a new donation
from Uihlein. Posey also called Uihlein to help
induce a donation. Stockman dictated some of the
contents of a solicitation letter but told Wagner that
the letter would “need[] to come from somebody else,
not [Stockman] directly.” The letter, which purported
to seek financing for an independent expenditure by
the “Center for the American Future,” induced
Uihlein to give $450,571.65. Uihlein testified that he
would not have donated the money if he had known
of Stockman’s involvement. Posey testified that the
Center for the American Future was under
Stockman’s control.
The 2014 Uihlein funds were used to print and
distribute hundreds of thousands of copies of The
Conservative News. Stockman called off the direct
mail campaign shortly before the primary, at which
point only $214,718.51 remained of Uihlein’s 2014
donation. At Stockman’s direction, Posey proceeded
to use these remaining funds to pay bills related to
Stockman’s Senate campaigns, including both his
Texas campaign and a prospective campaign in
Alaska. Posey also testified that Stockman
instructed him to flee to Egypt with some of the
6a

remaining funds, using them to pay for flights and
other travel expenses.2
II.
In March 2017, Stockman was indicted on four
counts of mail fraud, four counts of wire fraud, two
counts of making false statements in FEC filings,
eleven counts of money laundering, one count of
conspiracy to make conduit campaign contributions
and false statements, one count of causing an
excessive campaign contribution, and one count of
filing a false tax return.
The district court denied Stockman’s motions
to dismiss the indictment and to strike surplusage.
The case proceeded to a three-week jury trial, after
which Stockman was convicted on all counts but one.3
The district court denied Stockman’s motions for
judgment of acquittal, and later sentenced Stockman
to ten years in prison and three years of supervised
release. Stockman was also ordered to pay
restitution in the amount of $1,014,718.51. He timely
has appealed.
III.
Stockman now argues that the district court
erred by issuing problematic jury instructions, by
denying Stockman’s motions for judgment of
acquittal under Federal Rule of Criminal Procedure
29, and by denying his motion to dismiss the
indictment. With respect to the jury instructions,
Stockman contends that the district court erred by
defining 501(c)(3) and 501(c)(4) organizations in the
By this time, Stockman had wind that he was the target
of an FBI investigation. He thought that, by sending Posey to
Cairo with the 2014 Uihlein funds, he could evade a potential
asset freeze or forfeiture.
3
Stockman was acquitted on Count 6, a wire fraud
charge related to the Rothschild donations.
2

7a

charge and by failing to instruct the jury on
Stockman’s “good faith” defense to the tax and
campaign finance counts. With respect to the denial
of his Rule 29 motions, Stockman argues that the
government failed to prove the existence of a
fraudulent “scheme” devised with the requisite
intent to defraud. Stockman also makes three
arguments challenging his conviction for causing an
excessive campaign contribution under Count 12 of
the indictment, all of which essentially assert that
the district court erred by failing to recognize that
“express advocacy” is a necessary element of the
offense. In total, Stockman’s brief presents six
alleged errors infecting one or more of his
convictions.4 We find that each claim lacks merit.
A.
Stockman argues that his convictions for mail
and wire fraud cannot stand because the district
court
issued
“improper
and
unnecessary”
instructions that confused the jury. Specifically,
Stockman draws our attention to a section of the jury
charge that defines 501(c)(3) and 501(c)(4)
organizations in the following manner:
Arguably, Stockman has also preserved a complaint
about the district court’s disjunctive Count 12 jury instructions.
Stockman appears to argue that the district court erred by
allowing the jury to convict Stockman for inducing Uihlein’s
2014 expenditure on advertisements “advocating Mr.
Stockman’s election or attacking Mr. Stockman’s opponent”
because the indictment alleged a conjunction. But the
government does not heighten its burden of proof by pleading
criminal acts conjunctively. See United States v. Holley, 831
F.3d 322, 328 n.14 (5th Cir. 2016). Here, the government was
not required to prove that Uihlein’s money was spent on
advertising “advocating for Stockman’s election and attacking
Stockman’s opponent.” We thus decline to find error in the
district court’s disjunctive language.
4

8a

A 501(c)(3) organization is a nonprofit
corporation, fund, or foundation organized
and operated exclusively for religious,
charitable,
scientific,
or
educational
purposes.
Section 501(c)(3) organizations are generally
exempt from federal taxation, and donations
to [] these entities may be tax deductible. If
an organization is classified as a 501(c)(3)
organization, none of its net earnings may
benefit any private shareholder or individual.
A Section 501(c)(3) organization may not
participate or intervene in any political
campaign on behalf of or [in] opposition to
any candidate for public office.
A Section 501(c)(4) organization is a
nonprofit
organization
operated
exclusively for the promotion of social
welfare.
Section 501(c)(4) organizations are
also generally exempt from federal
taxation.
A
Section
501(c)(4)
organization may compensate employees
for work actually performed, but the net
earnings
of
a
Section
501(c)(4)
organization
must
be
devoted
exclusively to charitable, educational, or
recreational purposes. The net earnings
of a Section 501(c)(4) organization may
not benefit any private shareholder or
individual.
At oral argument, defense counsel represented
that Stockman principally objects that this language
of
the
instructions
was
“irrelevant”
and
9a

“unnecessary.” Stockman concedes, however, that no
contemporaneous objection was made at trial;
instead, he now argues that the district court should
have excluded the 501(c)(3) and 501(c)(4) definitions
from the charge sua sponte.
Given Stockman’s failure to object at trial, our
review is for plain error. United States v. Saldana,
427 F.3d 298, 303–04 (5th Cir. 2005). Stockman must
demonstrate “(1) that an error occurred; (2) that the
error was plain, which means clear or obvious; (3)
[that] the plain error [would] affect [his] substantial
rights; and (4) [that] not correcting the error would
seriously affect the fairness, integrity, or public
reputation of judicial proceedings.” Id. at 304
(quotation omitted).
We are not convinced that the district court
erred
by
defining
501(c)(3)
and
501(c)(4)
organizations in the charge, but, in any event, no
such error was sufficiently “clear or obvious” to
survive plain error review. Many of the witnesses
discussed 501(c)(3) and 501(c)(4) organizations in
their testimony, and some of that testimony even
went directly to the elements of mail and wire fraud.
Stockman has not cited a truly analogous case, and
we are not aware of one. We have said that an “error
cannot be plain where there is no controlling
authority on point and where the most closely
analogous precedent leads to conflicting results.”
United States v. Gomez, 706 F. App’x 172, 177 (5th
Cir. 2017) (quoting United States v. De La Fuente,
353 F.3d 766, 769 (9th Cir. 2003)). Similarly, when
any analogy to existing authority would be strained,
the district court’s actions cannot amount to plain
error.
Apart from his objection that the 501(c)(3) and
501(c)(4) definitions were “unnecessary,” Stockman
also argues that the definitions, though undisputedly
drawn from the text of the Internal Revenue Code,
10a

misled the jury by framing the obligations of
501(c)(3) and 501(c)(4) organizations in absolute
terms. See, e.g., St. David’s Health Care Sys. v.
United States, 349 F.3d 232, 235 (5th Cir. 2003)
(suggesting that tax-exempt organizations must be
operated primarily, rather than exclusively, for an
exempt purpose). But, again, we cannot agree that
the district court’s statutory instructions merit
reversal under the plain error standard. An
instruction that mirrors relevant statutory text “will
almost always convey the statute’s requirements,”
United States v. Lebowitz, 676 F.3d 1000, 1014 (11th
Cir. 2012), and Stockman has not identified any
authority rendering it “clear or obvious” that a
district court’s jury instructions must go beyond the
language of the statute in this context.
B.
Stockman next seeks to reverse his conviction
for causing an excessive campaign contribution in
the form of a coordinated expenditure, an offense
covered by Count 12 of the indictment. Count 12
alleges that Stockman, acting through various
agents, induced Uihlein to spend over $450,000 on
The Conservative News, a political communication
promoting the Stockman campaign. The government
argues that, because Stockman was involved in
requesting and spending the money for this project,
Uihlein’s $450,000 payment was a “coordinated
expenditure” under the Federal Election Campaign
Act, 52 U.S.C. § 30101 et seq. (FECA).5
FECA treats “coordinated” expenditures like “campaign
contributions,” placing an upper limit on the amount of money
that donors may spend on them. The government’s position is
that Stockman, having willfully caused Uihlein to spend more
than $25,000 on a coordinated communication, is subject to the
especially severe criminal penalties applicable to those who
make campaign contributions in excess of $25,000. See 52
5

11a

Stockman does not deny that, if the Uihlein
donation were an “expenditure,” it would be a
“coordinated” expenditure of over $450,000, the
equivalent of a campaign contribution well beyond
statutory limits. Indeed, he could not argue
otherwise: the evidence shows that Stockman at the
very least “cooperat[ed]” with Uihlein and Wagner’s
distribution of The Conservative News. See 52 U.S.C.
§ 30116(a)(7)(B)(i) (coordinated expenditures are
those made in “cooperation, consultation, or concert
with” a candidate or his campaign committee). For
example, Wagner testified that mailing The
Conservative News was Stockman’s idea, that
Stockman supervised him once distribution was
underway, and that Stockman dictated some of the
letter that secured funding from Uihlein.
Instead, Stockman’s appellate challenges to
the conviction turn on the word “expenditure.”
Stockman argues that, in Buckley v. Valeo, 424 U.S.
1 (1976), the “Supreme Court cabined FECA’s
definition of ‘expenditure’ to encompass only ‘funds
used for communications that expressly advocate for
the election or defeat of a clearly identified
candidate.’” Such “express advocacy” entails the use
of “words [like] ‘vote for,’ ‘elect,’ ‘support,’ ‘cast your
ballot for,’ ‘Smith for Congress,’ ‘vote against,’
‘defeat,’ [and] ‘reject.’” Buckley, 424 U.S. at 44 &
n.52. Stockman maintains that to effect a regulated
“expenditure,” donors must spend their money on
communications containing these “magic words.” It is
U.S.C. §§ 30116(a)(1)(A) (establishing upper limit on campaign
contributions), 30109(d)(1)(A)(i) (authorizing extra punishment
for campaign contributions in excess of $25,000),
30116(a)(7)(B)(i) (equating coordinated expenditures with
campaign contributions); 18 U.S.C. § 2(b) (authorizing
punishment “as a principal” for those who “willfully cause[] an
act to be done which if directly performed by [them] or [others]
would be an offense”).

12a

clear and uncontested that The Conservative News
does not contain direct instructions to “vote for” or
“defeat” any candidate. It would follow, Stockman
argues, that Uihlein did not effect an “expenditure”
when he funded The Conservative News.

But the Supreme Court rejected this
reading of FECA in McConnell v. FEC, 540 U.S.
93 (2003), overruled on other grounds by Citizens
United v. FEC, 558 U.S. 310 (2010)). In
McConnell, the Supreme Court considered
precisely the statutory language at issue here,
namely the rule (now codified at 52 U.S.C. §

30116(a)(7)(B)(i)) that “expenditures . . . in
cooperation, consultation, or concert with” a
candidate are to be considered the equivalent of
campaign contributions and restricted accordingly.
See McConnell, 540 U.S. at 202. The McConnell
Court explained that a post-Buckley statutory
enactment had “clarifie[d] the scope” of this
language, “pre-empt[ing]” a possible claim that
“coordinated expenditures for communications that
avoid express advocacy cannot be counted as
contributions.” 540 U.S. at 202. In other words, the
Court held that the presence of express advocacy is
not a prerequisite of the “settled” rule that when
expenditures are “controlled by or coordinated with
the candidate and his campaign[,] [they] may be
treated as indirect contributions subject to FECA’s . .
. amount limitations.” Id. at 219 (cleaned up).
Stockman seeks to distinguish McConnell on
the ground that “McConnell held . . . the express
advocacy requirement for expenditures . . . preempted
only with respect to . . . narrowly defined
‘electioneering communication[s].’”6 Not so. The
An “electioneering communication” is “any broadcast,
cable, or satellite communication that refers to a clearly
identified candidate for federal office and is made within 30
6

13a

relevant portion of McConnell deals separately with
two distinct subsections of FECA, one pertaining to
electioneering communications and the other to
expenditures “more generally.” 540 U.S. at 202. The
latter subsection, not the former, was the focus of the
Court’s “preemption” comment. Id. We reject
Stockman’s construction of the statute.7
C.
We next consider Stockman’s argument that
his tax and campaign finance convictions under
Counts 10, 11, 12, and 28 of the indictment were
tainted by the district court’s refusal to instruct on
“good faith.” Stockman points to evidence that he
relied on an accountant who “wrongly advised him
that having aides contribute money to his
congressional campaign in the name of their parents
was permissible.” He also points to evidence that
Stockman and Posey intentionally omitted words of
express advocacy from The Conservative News in
days of a primary or 60 days of a general election.” Citizens
United, 558 U.S. at 321 (cleaned up). The McConnell decision is
largely, but not exclusively, concerned with Congress’s
regulation of these communications. See 540 U.S. at 189–02.
7
Stockman also attempts to escape McConnell by
invoking Center for Individual Freedom v. Carmouche, 449 F.3d
655 (5th Cir. 2006), and Chamber of Commerce of the United
States v. Moore, 288 F.3d 187 (5th Cir. 2002). But neither case
analyzed whether Buckley’s limiting construction should apply
to coordinated expenditures. Carmouche interpreted a
Louisiana statue that “link[ed] disclosure requirements for
expenditures made by independent individuals” to language
that the Supreme Court narrowed in Buckley. Carmouche, 449
F.3d at 664 (emphasis added). Moore found that the relevance
of express advocacy was clear because the Mississippi statute
under scrutiny had “essentially adopted the language” of the
Buckley limiting construction. Moore, 288 F.3d at 196. These
cases are distinguishable and neither one casts doubt on the
conclusions we draw from McConnell.

14a

order to comply with FECA. He asserts that “[i]n this
context and where willfulness is required, a good
faith instruction should have been given.”
Again, we disagree. Although the parties
dispute the standard of review applicable to the
district court’s refusal to instruct on good faith,
decisions of this court and the Supreme Court show
that the refusal was not erroneous, whether
reviewed de novo or for plain error. See United States
v. Pomponio, 429 U.S. 10, 11–12 (1976); United
States v. Simkanin, 420 F.3d 397, 409–11 (5th Cir.
2005). Stockman argues that a good faith instruction
should have been issued because the tax and
campaign finance offenses in question all require a
showing of “willfulness.”
But it is precisely that requirement that
renders any such instruction unnecessary. The
Supreme Court held in Pomponio that an additional
good faith instruction is not required when the
charge already requires proof of “willfulness,”
properly cabined to cover only “voluntary, intentional
violation[s] of . . . known legal dut[ies].” 429 U.S. at
12 (quotation omitted). In so holding, the Court gave
its approval to a charge that did not instruct on good
faith but did instruct on the need for proof of a
“willful” act, meaning an act “done voluntarily and
intentionally and with the specific intent to do
something which the law forbids, that is to say with
[the] bad purpose either to disobey or disregard the
law.” Id. at 11–12 (quotation omitted). Drawing from
Pomponio, we held in Simkanin that a “specific
instruction” on good faith is not required when the
concept is sufficiently subsumed by a general
instruction on “willfulness.” 420 F.3d at 409–11.
Simkanin, like Pomponio, approved of instructions
alerting the jury to the fact that a “willful” act is done
“voluntarily and deliberately,” with the intention of
“violat[ing] a known legal duty.” Id. at 409–10.
15a

Here, the district court’s instructions mirrored
those in Pomponio and Simkanin. With respect to
Counts 10, 11, and 12, the district court instructed
the jury that to act “willfully,” the defendant must
act “voluntarily and purposely, with the specific
intent to do something the law forbids, that is, with
the bad purpose either to disobey or disregard the
law.” With respect to Count 28, the district court
instructed the jury that it could not convict unless it
found that Stockman acted “with intent to violate a
known legal duty.” We find no merit in Stockman’s
“good faith” argument.
D.
Finally, we address Stockman’s challenge to
the evidence supporting his convictions for mail
fraud, wire fraud, and money laundering.8 Stockman
argues that the district court erred when it denied his
motions for judgment of acquittal under Rule 29,
contending that the government failed to prove a
fraudulent “scheme” that Stockman devised with the
necessary intent to defraud. See 18 U.S.C. §§ 1341,
1343. We review the denial of a Rule 29 motion de
novo, asking whether “any rational trier of fact could
have found the essential elements of the crime[s]
beyond a reasonable doubt.” United States v. Xu, 599
F.3d 452, 453 (5th Cir. 2010) (quotations omitted).
The elements of mail fraud are “(1) a scheme
to defraud; (2) use of the mails to execute the
scheme; and (3) the specific intent to defraud.”
As to the money laundering convictions, Stockman
argues only that the government cannot meet its burden
to prove a predicate offense if the fraud convictions lack
evidentiary support. See 18 U.S.C. §§ 1956–57. Because
we reject Stockman’s challenge to the fraud convictions,
we necessarily reject his challenge to the money
laundering convictions as well.
8

16a

United States v. Simpson, 741 F.3d 539, 547–48 (5th
Cir. 2014) (quotation omitted). The elements of wire
fraud are “(1) a scheme to defraud; (2) the use of, or
causing the use of, wire communications in
furtherance of the scheme; and (3) a specific intent to
defraud.” United States v. Harris, 821 F.3d 589, 598
(5th Cir. 2016). In evaluating its sufficiency, we view
the evidence in the light most favorable to the
government. United States v. Rodgers, 624 F.2d
1303, 1306 (5th Cir. 1980). Stockman challenges the
evidence supporting his convictions with respect to
both the “scheme” and “intent” elements of mail and
wire fraud.
1.
Challenging the denial of his Rule 29 motions,
Stockman argues that the government’s evidence
does not establish a fraudulent “scheme.” His
reasoning is somewhat tortuous. Stockman argues
that, although purporting to allege a single scheme,
the indictment actually alleges “no fewer than four
separate ‘schemes.’” He further asserts that at least
one of these four separate schemes, the 2014 Uihlein
“scheme,” is not supported by sufficient evidence
because the government failed to prove that in the
2014 scheme Uihlein was deprived of money or
property. Then, expressly reverting to a singlescheme argument, he contends that, because the jury
returned a general verdict without specifying which
“scheme within a scheme” it was relying on to satisfy
the “scheme” element of mail and wire fraud, all
seven mail and wire fraud convictions must be set
aside for failure to prove a scheme. See Yates v.
United States, 354 U.S. 298, 311 (1957) (“[A] verdict
[must] be set aside in cases where the verdict is

supportable on one ground, but not on another,
and it is impossible to tell which ground the jury
selected.”), overruled on other grounds by Burks
17a

v. United States, 437 U.S. 1 (1978).
Stockman’s arguments are confected on a
foundation of sand. The evidence shows that there
was only one scheme, a scheme to separate wealthy
donors from their money and to spend that money at
Stockman’s pleasure and direction. Furthermore,
there is no merit in Stockman’s argument that the
2014 Uihlein solicitations did not threaten to deprive
Uihlein of money or property. Each donation from
each donor, Uihlein included, was given under the
false pretense that the donor’s money would be used
for specific purposes, including “voter education” and
independent political advocacy. The money was not
used for those purposes. Instead, it was, at all times,
under Stockman’s control. He used it to finance his
political career and sustain his self-indulgent
lifestyle. It is thus clear that all of Stockman’s
solicitations were designed to effectuate a traditional
“money or property” fraud.
In short, we hold that there was no failure of
proof regarding the “scheme” element of mail and
wire fraud. On the contrary, viewing the evidence in
the light most favorable to the conviction, we find
ample support for the government’s position that
Stockman orchestrated a single scheme to appeal to
the charity of politically-interested donors for
fraudulent purposes.
2.
Stockman further challenges the denial of his
Rule 29 motions on the ground that the government
produced insufficient evidence of Stockman’s
fraudulent intent. In this context, he argues that the
government’s evidence does not suggest a
“contemporaneous” intent to defraud because
evidence of Stockman’s illicit spending cannot
establish bad faith simultaneous with the solicitation
and receipt of donor funds. From this premise,
18a

Stockman concludes that the government’s case is
based on nothing more than “evidentiary time
travel.” Stockman’s time-and-space argument is
weakened by the absence of evidence supporting it,
but even more by the very strong evidence from
which the jury could reasonably infer that Stockman
had the intent to defraud from the time the money
was donated until it was fully spent.
Stockman does not deny that, shortly after
receiving donations from Rothschild and Uihlein, he
misappropriated the funds by disregarding the
purposes for which they were donated. Indeed,
Stockman does little to dispute the overwhelming
evidence that, shortly after receiving it, he quickly
diverted donor money to personal and political
projects having nothing to do with philanthropy or
education. Notwithstanding Stockman’s self-serving
view that later misappropriations cannot evidence
earlier bad faith, the jury could rationally have
inferred Stockman’s fraudulent intent from this
largely undisputed evidence. We thus find that the
government has also met its burden with respect to
the “intent” element of mail and wire fraud.
IV.
In this appeal, we have held that the district
court’s instructions were not erroneous. It was not
plain error for the district court to define 501(c)(3)
and 501(c)(4) organizations in the charge, and
Stockman was not entitled to an instruction on good
faith. We have also held that the district court did
not err by denying Stockman’s motions for judgment
of acquittal under Rule 29. The government provided
ample evidence that Stockman fraudulently devised,
and implemented, a scheme to deprive two donors of
their money and property, thus allowing the jury to
rationally find Stockman guilty of mail fraud, wire
fraud, and money laundering. And, we have further
19a

held that FECA’s contribution limits apply to
coordinated spending on political communications,
irrespective of whether those communications
contain magic words of express advocacy. We thus
have affirmed Stockman’s campaign finance
conviction.
In sum, the judgment of the district court is, in
all respects,
AFFIRMED.

20a

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CRIMINAL NO. H-17-116-2
UNITED STATES OF AMERICA,
v.
STEPHEN E. STOCKMAN
ORDER
A jury convicted Stephen Stockman of 23
felony charges after a four-week trial. (Docket Entry
No. 211). Stockman moved for judgment of acquittal
under Rule 29 of the Federal Rules of Criminal
Procedure, and the government responded. (Docket
Entries No. 257, 261).
Under Rule 29, a jury’s verdict “will be affirmed
‘if a reasonable trier of fact could conclude from the
evidence that the elements of the offense were
established beyond a reasonable doubt.’” United
States v. Girod, 646 F.3d 304, 313 (5th Cir. 2011)
(quoting United States v. Myers, 104 F.3d 76, 78 (5th
Cir. 1997)). In assessing the sufficiency of the
evidence, a court does not “evaluate the weight of the
evidence or the credibility of the witnesses, but
view[s] the evidence in the light most favorable to the
verdict, drawing all reasonable inferences to support
the verdict.” Id. “The evidence need not exclude every
reasonable hypothesis of innocence or be wholly
inconsistent with every conclusion except that of
guilt, and the jury is free to choose among reasonable
constructions of the evidence.” United States v.
Anderson, 174 F.3d 515, 522 (5th Cir. 1999) (quoting
United States v. Burton, 126 F.3d 666, 669–70 (5th
Cir. 1997)).
Based on the motion, response, and a careful
review of the record and the evidence admitted at
trial, the motion for acquittal, (Docket Entry No.
21a

257), is denied. The reasons for this ruling are
explained below.
I.
Counts 3, 4, and the Related MoneyLaundering Charges
Stockman argues insufficient evidence to
support his convictions on counts 3 and 4, which
charge mail fraud relating to a $450,571.65 donation
by Richard Uihlein to fund postage for a purportedly
independent expenditure. Stockman argues that
Uihlein knew that his donation would not go toward
an independent expenditure because Uihlein knew
that Stockman would be involved in the project.
Stockman points to trial testimony showing that the
letter soliciting the donation, drafted by Kurt
Wagner, a Stockman constituent, used “we” and “us”
to refer to Wagner and Stockman acting together.
Stockman also points to testimony that Uihlein called
Wagner to discuss funding for the independent
expenditure. Stockman argues that although the
evidence may have shown that Stockman was
complicit in a coordinated, rather than independent,
expenditure, or may have shown an excessive
contribution by Uihlein, the evidence did not show that
Stockman intended to defraud Uihlein. Stockman
argues that, if Uihlein knew about the illegal scheme,
Stockman could not have intended to defraud him
because he was a knowing participant.
The government points to Uihlein’s trial
testimony that, when the solicitation was made, he
understood that the project would be done
independently of Stockman and his campaign:
[Prosecutor]: And did you understand, based on the
representations made to you, that the
advertising
would
be
done
independently of the defendant and his
campaign?
[Uihlein]:
Yes.
[Prosecutor]: Was that fact important to you when
you wrote this check?
22a

[Uihlein]:
Yes, it was.
[Prosecutor]: If you had been told that the
expenditure would, in fact, be made in
coordination with the defendant, would
you have written this check?
[Uihlein]: No, I wouldn’t.
(Docket Entry No. 192 at 51).
The government also points to evidence
showing Stockman’s actions to conceal his work with
the Center for the American Future, the organization
that coordinated the purportedly independent
expenditure. Those actions included: directing Jason
Posey, the Center’s director, to send a letter on
Center letterhead to Uihlein soliciting funding for the
expenditure; directing Posey to purchase “burner” cell
phones to communicate about the project; providing
content for the letter Wagner sent to Uihlein; and
Wagner’s trial testimony that Stockman had told
him that the solicitation had to come from someone
other than Stockman. (Gov’t Exs. 2014-2d, 2014-6i,
2014- 2g).
Viewed in “the light most favorable to the
government with all reasonable inferences . . . made
in support of the verdict,” the evidence was sufficient
for a jury to reasonably conclude that Stockman
intended to defraud Uihlein. United States v. Terrell,
700 F.3d 755, 760 (5th Cir. 2012) (internal quotation
and alteration omitted). Stockman points to evidence
that he argues may support an inference that Uihlein
knew that Stockman would have been involved with
the advertising project, including using the words
“we” and “us” in a fundraising solicitation sent by
one of Stockman’s constituents who ran a directmailing company. The government points to
significant conflicting evidence, including Uihlein’s
own testimony clearly stating that he relied on and
believed the representations that the project would be
independent from Stockman and his campaign, and
that he would not have written the check if he had
known that the funds would be used for a project
23a

that was not an independent expenditure.
The clear weight of the evidence supported the
convictions. The jury credited Uihlein’s explanation
and description of what Stockman told him and what
he knew, believed, and expected as a result. The jury
clearly did not believe the evidence that Stockman’s
counsel cites to make the argument about Uihlein’s
“real” motive. The evidence in the record was clearly
sufficient for the jury to conclude that Stockman
intended to defraud Uihlein and supports the verdict
on counts 3, 4, and the related money-laundering
charges. See Anderson, 174 F.3d at 522 (“[T]he jury is
free to choose among reasonable constructions of the
evidence.” (internal quotation omitted)).
II.
Counts 1, 8, and the Related MoneyLaundering Charges
Counts 1 and 8 charge mail and wire fraud
relating to a separate $350,000 donation by Uihlein
for the Freedom House project. Stockman moved for
acquittal on these counts and the related moneylaundering charges because “these counts rest on Mr.
Uihlein’s credibility in testifying that (a) his
donation was restricted and that (b) he
communicated such intent to Stockman.” (Docket
Entry No. 261 at 4). According to Stockman,
although Uihlein’s testimony appeared credible, “it
must not be evaluated in a vacuum separate and
apart from his objectively dubious testimony
regarding the ostensible $450,000 independent
expenditure” discussed above. (Id. at 5).
The government points to Uihlein’s trial
testimony that Stockman told him that his donation
would go toward the Freedom House; that he did not
know that the donation would instead go toward
Stockman’s political campaigns; and that he would
not have made the donation if Stockman had told him
that any part of the donation would go toward
Stockman’s political campaigns or personal
expenses. (Docket Entry No. 192 at 82–83). The
government also points to other evidence, including:
24a

a pamphlet Stockman gave to Uihlein that included
a photograph of a house and a proposed budget for
the Freedom House project, (Gov’t Ex. 2013-2d); bank
records showing that Stockman used some of
Uihlein’s Freedom House donation to pay a bonus to
a campaign worker, (Gov’t Exs. 2013-3a, 2013-31,
3013-3o-1, 2013-3o-2); and a letter that Posey sent to
Uihlein’s accountant stating that Uihlein’s donation
was used to “deliver medical supplies to third world
nations and support Freedom House,” (Gov’t Ex.
2013-2j).
The evidence admitted at trial undermines
Stockman’s argument that the jury should not have
been allowed to weigh Uihlein’s credibility on this
issue. That evidence was consistent with and amply
supported Uihlein’s testimony that he believed his
donations would go toward the Freedom House, not
to Stockman’s political campaigns and personal
expenses. Stockman asks the court to weigh Uihlein’s
testimony and find it lacking in credibility, but at this
stage, the court may not “evaluate the weight of the
evidence or the credibility of the witnesses.” Girod,
646 F.3d at 313. The evidence is sufficient to support
the verdict on counts 1, 8, and the related moneylaundering charges.
III. III. Counts 2, 5, 7, and the Related
Money-Laundering Charges
Counts 2, 5, and 7 relate to Stockman’s 2012
solicitations of donations from Stanford Rothschild to
the tax-exempt 501(c)(3) organization, Life Without
Limits. Rothschild died before trial did not testify.
Stockman argues that “[t]he fraud demonstrated at
trial was not a cheat on Stockman’s part, but a cheat
on Mr. Rothschild’s part” because Rothschild wanted
to donate to Stockman’s political campaign through
his foundation to avoid paying taxes. (Docket Entry
No. 257 at 5). Stockman argues that he solicited
donations from Rothschild for campaign-related
purposes, and that those donations were used for
Stockman’s campaign expenses, even though they
25a

were made to a tax-exempt 501(c)(3) organization.
Similar to his arguments about Uihlein’s donations,
Stockman argues, as he did at trial, that he did not
intend to deceive Rothschild, but at most was
“complicit in helping Mr. Rothschild cheat the IRS
while funding his campaign.” (Id. at 6).
The evidence at trial was sufficient for a
reasonable jury to discredit and reject that argument.
Stockman sent Rothschild several letters seeking
donations for his campaigns, but he directed
Rothschild to send the money to the Ross Center and
Life Without Limits, both tax-exempt 501(c)(3)
organizations, instead of to his campaign committee.
One letter stated that “[the Ross Center] along with
me desperately need your help. I’m told as long as
it’s good faith a check can be sent and received.”
(Gov’t Ex. 2012-2i). Attached to that letter was a
letter from the IRS approving the Ross Center as a
tax-exempt 501(c)(3) organization. (Id.). In another
letter, Stockman thanked Rothschild for an earlier
donation and sought another $52,000 donation to
support his primary campaign, stating that “[a]s an
accountant I am frugal and watchful that every
dollar you invest in our efforts to restore America is
used to defeat the left.” (Gov’t Ex. 2012-3g). At the
bottom of the letter, Stockman included instructions
to Rothschild to send the funds to Life Without
Limits. (Id.). In 2013, Stockman sent the Rothschild
Charitable Foundation a letter, on Life Without
Limits letterhead, confirming receipt of $140,000 in
tax-deductible contributions for 2012. The letter
stated, “[f]riends like you helped us educate many
people last year in traditional American values who
otherwise would not have been reached. . . . We are
looking forward to educating and motivating
American citizens to restore our nation to the JudeoChristian values and freedoms that made this nation
great!” (Gov’t Ex. 2012-4ee).
The jury also heard evidence about the context
and timing of those letters. Rothschild made
donations to Stockman in 2010 purported to be for
26a

voter-education projects. Ample evidence showed
that those funds were not used for voter-education
projects, but were instead used for Stockman’s
personal
expenses.
Additionally,
Rothschild’s
assistant testified that, when Rothschild made the
2012 donations, his health was declining to the point
that she sometimes had to write checks on his behalf.
She also testified that, in 2014, Rothschild’s charitable
organization withdrew his authority to make
donations because of concerns about his memory and
health. The concerns about Rothschild’s memory and
health in 2012 undermine Stockman’s argument about
Rothschild’s “improper” motives.
Ample
evidence
supported
the
jury’s
determination that the solicitation letters and the
later confirmation letter showed Stockman’s intent
to deceive Rothschild into thinking that he was
donating to charitable organizations, when in fact the
money was used for Stockman’s campaigns. Although
Stockman cites other evidence about his intent, the
jury was “free to choose among reasonable
constructions of the evidence.” Anderson, 174 F.3d at
522. The evidence was sufficient to support the
verdict on counts 2, 5, 7, and the related moneylaundering charges.
IV.
Conclusion
The motion for acquittal, (Docket Entry No.
257), is denied. The evidence was sufficient to
support the jury verdict on all of the challenged
counts.
SIGNED on June 13, 2018, at Houston, Texas.
/s/ Lee H. Rosenthal
Lee H. Rosenthal
Chief United States District Judge

27a

United States Court of Appeals for the
Fifth Circuit
No. 18-20780
UNITED STATES OF AMERICA,
PLAINTIFF - APPELLEE,
v.
STEPHEN E. STOCKMAN,
DEFENDANT - APPELLANT.
Appeal from the United States District Court for the
Southern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion January 10, 2020, 5 Cir., __, __F.3d __)
Before: JOLLY, GRAVES, and HIGGINSON, Circuit
Judges.
PERCURIAM:
(x) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc is
DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
28a

been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc is
DENIED.
ENTERED FOR THE COURT:
/s/ E. Grady Jolly
UNITED STATES CIRCUIT JUDGE

29a

U.S. CONST. amend. I
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the government for a redress
of grievances.
52 U.S.C. § 30101(9)
(9)
(A) The term “expenditure” includes—
(i) any purchase, payment, distribution, loan,
advance, deposit, or gift of money or anything of value,
made by any person for the purpose of influencing any
election for Federal office; and
(ii) a written contract, promise, or agreement to
make an expenditure.
(B) The term “expenditure” does not include—
(i) any news story, commentary, or editorial
distributed through the facilities of any broadcasting
station, newspaper, magazine, or other periodical
publication, unless such facilities are owned or
controlled by any political party, political committee,
or candidate;
(ii) nonpartisan activity designed to encourage
individuals to vote or to register to vote;
(iii) any communication by any membership
organization or corporation to its members,
stockholders, or executive or administrative
personnel, if such membership organization or
corporation is not organized primarily for the purpose
of influencing the nomination for election, or election,
of any individual to Federal office, except that the
costs incurred by a membership organization
30a

(including a labor organization) or by a corporation
directly attributable to a communication expressly
advocating the election or defeat of a clearly identified
candidate (other than a communication primarily
devoted to subjects other than the express advocacy of
the election or defeat of a clearly identified candidate)
, shall, if such costs exceed $2,000 for any election, be
reported to the Commission in accordance with
section 30104(a) (4) (A) (i) of this title, and in
accordance with section 30104(a) (4) (A) (ii) of this title
with respect to any general election;
(iv) the payment by a State or local committee of
a political party of the costs of preparation, display, or
mailing or other distribution incurred by such
committee with respect to a printed slate card or
sample ballot, or other printed listing, of 3 or more
candidates for any public office for which an election
is held in the State in which such committee is
organized, except that this clause shall not apply to
costs incurred by such committee with respect to a
display of any such listing made on broadcasting
stations, or in newspapers, magazines, or similar
types of general public political advertising;
(v) any payment made or obligation incurred by a
corporation or a labor organization which, under
section 30118(b) of this title, would not constitute an
expenditure by such corporation or labor organization;
(vi) any costs incurred by an authorized
committee or candidate in connection with the
solicitation of contributions on behalf of such
candidate, except that this clause shall not apply with
respect to costs incurred by an authorized committee
of a candidate in excess of an amount equal to 20
percent of the expenditure limitation applicable to
such candidate under section 30116(b) of this title, but
31a

all such costs shall be reported in accordance with
section 30104(b) of this title;
(vii) the payment of compensation for legal or
accounting services—
(I) rendered to or on behalf of any political
committee of a political party if the person paying for
such services is the regular employer of the individual
rendering such services, and if such services are not
attributable to activities which directly further the
election of any designated candidate to Federal office;
or
(II) rendered to or on behalf of a candidate or
political committee if the person paying for such
services is the regular employer of the individual
rendering such services, and if such services are solely
for the purpose of ensuring compliance with this Act
or chapter 95 or chapter 96 of title 26,
but amounts paid or incurred by the regular
employer for such legal or accounting services shall be
reported in accordance with section 30104(b) of this
title by the committee receiving such services;
(viii) the payment by a State or local committee of
a political party of the costs of campaign materials
(such as pins, bumper stickers, handbills, brochures,
posters, party tabloids, and yard signs) used by such
committee in connection with volunteer activities on
behalf of nominees of such party: Provided, That—
(1) such payments are not for the costs of
campaign materials or activities used in connection
with any broadcasting, newspaper, magazine,
billboard, direct mail, or similar type of general public
communication or political advertising;

32a

(2) such payments are made from contributions
subject to the limitations and prohibitions of this Act;
and
(3) such payments are not made from
contributions designated to be spent on behalf of a
particular candidate or particular candidates;
(ix) the payment by a State or local committee of
a political party of the costs of voter registration and
get-out-the-vote activities conducted by such
committee on behalf of nominees of such party for
President and Vice President: Provided, That—
(1) such payments are not for the costs of
campaign materials or activities used in connection
with any broadcasting, newspaper, magazine,
billboard, direct mail, or similar type of general public
communication or political advertising;
(2) such payments are made from contributions
subject to the limitations and prohibitions of this Act;
and
(3) such payments are not made from
contributions designated to be spent on behalf of a
particular candidate or candidates; and
(x) payments received by a political party
committee as a condition of ballot access which are
transferred to another political party committee or the
appropriate State official.
52 U.S.C. § 30116(a)(7)(B)-(C)
(7)For purposes of this subsection—
…
(B)
(i)expenditures made by any person in
cooperation, consultation, or concert, with, or at the
request or suggestion of, a candidate, his authorized
33a

political committees, or their agents, shall be
considered to be a contribution to such candidate;
(ii)expenditures made by any person (other than a
candidate or candidate’s authorized committee) in
cooperation, consultation, or concert with, or at the
request or suggestion of, a national, State, or local
committee of a political party, shall be considered to
be contributions made to such party committee; and
(iii)the financing by any person of the
dissemination, distribution, or republication, in whole
or in part, of any broadcast or any written, graphic, or
other form of campaign materials prepared by the
candidate, his campaign committees, or their
authorized agents shall be considered to be an
expenditure for purposes of this paragraph; and [1]
(C)if—
(i)any person makes, or contracts to make, any
disbursement for any electioneering communication
(within the meaning of section 30104(f)(3) of this
title); and
(ii)such disbursement is coordinated with a
candidate or an authorized committee of such
candidate, a Federal, State, or local political party or
committee thereof, or an agent or official of any such
candidate, party, or committee;
such disbursement or contracting shall be treated as
a contribution to the candidate supported by the
electioneering communication or that candidate’s
party and as an expenditure by that candidate or that
candidate’s party; and
18 U.S.C. § 1341
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining
34a

money or property by means of false or fraudulent
pretenses, representations, or promises, or to sell,
dispose of, loan, exchange, alter, give away, distribute,
supply, or furnish or procure for unlawful use any
counterfeit or spurious coin, obligation, security, or
other article, or anything represented to be or
intimated or held out to be such counterfeit or
spurious article, for the purpose of executing such
scheme or artifice or attempting so to do, places in any
post office or authorized depository for mail matter,
any matter or thing whatever to be sent or delivered
by the Postal Service, or deposits or causes to be
deposited any matter or thing whatever to be sent or
delivered by any private or commercial interstate
carrier, or takes or receives therefrom, any such
matter or thing, or knowingly causes to be delivered
by mail or such carrier according to the direction
thereon, or at the place at which it is directed to be
delivered by the person to whom it is addressed, any
such matter or thing, shall be fined under this title or
imprisoned not more than 20 years, or both. If the
violation occurs in relation to, or involving any benefit
authorized, transported, transmitted, transferred,
disbursed, or paid in connection with, a presidentially
declared major disaster or emergency (as those terms
are defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act (42
U.S.C. 5122)), or affects a financial institution, such
person shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.
18 U.S.C. § 1343
Whoever, having devised or intending to devise
any scheme or artifice to defraud, or for obtaining
money or property by means of false or fraudulent
35a

pretenses, representations, or promises, transmits or
causes to be transmitted by means of wire, radio, or
television communication in interstate or foreign
commerce, any writings, signs, signals, pictures, or
sounds for the purpose of executing such scheme or
artifice, shall be fined under this title or imprisoned
not more than 20 years, or both. If the violation occurs
in relation to, or involving any benefit authorized,
transported, transmitted, transferred, disbursed, or
paid in connection with, a presidentially declared
major disaster or emergency (as those terms are
defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act (42
U.S.C. 5122)), or affects a financial institution, such
person shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.
FED. R. CRIM. PROC. 29(A)-(C)
(a) Before Submission to the Jury. After the
government closes its evidence or after the close of all
the evidence, the court on the defendant's motion
must enter a judgment of acquittal of any offense for
which the evidence is insufficient to sustain a
conviction. The court may on its own consider whether
the evidence is insufficient to sustain a conviction. If
the court denies a motion for a judgment of acquittal
at the close of the government's evidence, the
defendant may offer evidence without having reserved
the right to do so.
(b) Reserving Decision. The court may reserve
decision on the motion, proceed with the trial (where
the motion is made before the close of all the
evidence), submit the case to the jury, and decide the
motion either before the jury returns a verdict or after
it returns a verdict of guilty or is discharged without
36a

having returned a verdict. If the court reserves
decision, it must decide the motion on the basis of the
evidence at the time the ruling was reserved.
(c) After Jury Verdict or Discharge.
(1) Time for a Motion. A defendant may move for
a judgment of acquittal, or renew such a motion,
within 14 days after a guilty verdict or after the court
discharges the jury, whichever is later.
(2) Ruling on the Motion. If the jury has returned
a guilty verdict, the court may set aside the verdict
and enter an acquittal. If the jury has failed to return
a verdict, the court may enter a judgment of acquittal.
(3) No Prior Motion Required. A defendant is not
required to move for a judgment of acquittal before the
court submits the case to the jury as a prerequisite for
making such a motion after jury discharge.
FED. R. CRIM. PROC. 52(B)
(b) Plain Error. A plain error that affects
substantial rights may be considered even though it
was not brought to the court's attention.

37a

